HHS/OIG-AUDIT--Foster Care Training Administrative Costs Claimed for Federal
Reimbursement by the California Department of Social Services (A-09-96-00066)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Foster Care Training Administrative Costs Claimed for Federal Reimbursement
by the California Department of Social Services," (A-09-96-00066)
September 4, 1997
Complete
Text of Report is available in PDF format (3.63 MB). Copies can also
be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report presents the results of our audit of administrative costs related
to training provided to current and prospective employees and claimed for Federal
reimbursement by the California Department of Social Services (State) under
title IV-E (Foster Care program) of the Social Security Act. Federal financial
participation is available at a rate of 75 percent in certain costs of training
staff employed or preparing for employment by the State or local agency administering
Foster Care programs. This is an enhanced rate over the 50 percent rate for
administrative costs necessary for the operation of States' Foster Care programs,
including administrative costs related to training. The audit covered the period
July 1, 1994 through December 31, 1995.
The primary objective of our audit was to determine whether the State claimed
administrative costs related to foster care training at the appropriate rate
of 50 percent instead of the 75 percent rate allowed for certain training costs
specified by Federal regulations.
ADMINISTRATIVE COSTS CLAIMED AT 75 PERCENT RATE
Inappropriately Claimed Costs. The State inappropriately
claimed administrative costs related to foster care training at the enhanced
rate of 75 percent rather than the allowable rate of 50 percent. We identified
$8.4 million inappropriately claimed at the 75 percent rate, resulting in an
overclaim of Federal funds totaling $2.1 million. The costs related to county
welfare departments, probation departments, and State and county contracts
with universities and did not meet the definition of costs eligible for the
enhanced rate under Federal regulations for the Foster Care programs.
Insufficiently Documented Costs. The State did not
provide sufficient documentation to support some of the costs that were claimed
as matching costs to meet the State's cost sharing requirement for certain
costs claimed at the 75 percent enhanced rate. We identified $3.8 million (Federal
share $2.8 million) of such inadequately supported costs claimed. In some instances,
information provided by the State was not sufficient to determine the allowability
of the costs under Federal regulations; in other instances, the information
was not sufficient to distinguish between (i) costs related to training activities
reimbursable at the 75 percent rate, and (ii) costs for administrative activities
reimbursable at the 50 percent rate.
DUPLICATE COSTS CLAIMED
In its quarterly statements of expenditures, the State included adjustments
to costs claimed for Federal reimbursement which resulted in two duplicate
claims totaling $6.8 million (Federal share $4.5 million). One duplicate claim
resulted from an apparent lack of understanding on how to claim child welfare
information system costs that were allowable at the 75 percent rate. This resulted
in the same costs being claimed under two different cost categories. The other
duplicate claim resulted from an administrative error which duplicated an earlier
adjustment for underclaimed costs.
We recommend that the State refund $6.6 million, which includes $2.1 million
due to the inappropriate use of the 75 percent rate, and $4.5 million resulting
from the duplication of costs. We also recommend that the State provide documentation
for the unsupported costs claimed or make an appropriate refund of costs which
cannot be supported. Our report also includes various procedural recommendations.
The State concurred with the recommended refund of $4.5 million resulting
in duplicate claims. However, the State did not concur with the recommended
refund of $2.1 million in administrative costs claimed at the enhanced rate
of 75 percent or the finding and recommendation relating to the $3.8 million
(Federal share $2.8 million) of inadequately supported costs set aside. The
State did not agree that the regulations limited Federal reimbursement of training-related
administrative costs to 50 percent, and commented that it considered the documentation
provided in support of the costs claimed to meet its matching requirements
to be sufficient.